          Audit Report



Performance Indicator Audit:
Recruiting and Employment
         Indicators




  A-13-14-14033 | September 2014
MEMORANDUM


Date:      September 26, 2014                                                 Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Performance Indicator Audit: Recruiting and Employment Indicators (A-13-14-14033)

           The attached final report presents the results of our audit. Our objective was to assess the Social
           Security Administration’s performance indicators for Recruiting and Hiring Veterans and
           Disabled Veterans as well as Employing Individuals with Targeted Disabilities. Specifically, we

           1. documented the sources of data collected to report on the performance indicators;

           2. identified and tested critical controls of systems from which the specified performance data
              were gathered;

           3. tested the adequacy, accuracy, reasonableness, completeness, and consistency of the
              underlying data for the specified performance indicators; and

           4. recalculated the values reported for the indicators to verify accuracy.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Performance Indicator Audit: Recruiting and Employment
Indicators
A-13-14-14033
September 2014                                                           Office of Audit Report Summary

Objective                                  Our Findings

To assess the Social Security              Underlying data used to report SSA’s FY 2012 PI for Recruiting
Administration’s (SSA) performance         and Hiring Veterans and Disabled Veterans were adequate,
indicators (PI) for Recruiting and         reasonable, complete, and consistent; and we were able to
Hiring Veterans and Disabled Veterans      recalculate the performance reported for both PIs using data
as well as Employing Individuals with      provided by SSA. However, we were unable to test the underlying
Targeted Disabilities. Specifically, we    data for Employing Individuals with Targeted Disabilities because
(1) documented the sources of data         updated employee disability status information replaced the
collected to report on the PIs;            previous disability data in the Federal Personnel/Payroll System,
(2) identified and tested critical         and the Agency was not required to maintain the forms employees
controls of systems from which the         submitted. Furthermore, the Agency did not include employees
specified performance data were            who converted from temporary to permanent employment in its
gathered; (3) tested the adequacy,         performance reporting for recruiting and hiring veterans and
accuracy, reasonableness,                  disabled veterans. However, starting in FY 2015, the Agency will
completeness, and consistency of the       adopt a new Office of Personnel Management performance model.
underlying data for the specified PIs;     Lastly, SSA incorrectly identified the Human Resources
and (4) recalculated the values reported   Operational Data Store as the data source for the PIs in certain
for the indicators to verify accuracy.     Agency reports.

Background                                 Our Recommendation

SSA reported it used PIs to gauge its      We recommend that SSA correct the data source in future Agency
progress in meeting strategic goals and    reporting for the targeted disabilities PI.
objectives outlined in its Strategic
Plan. We reviewed two performance          SSA agreed with our recommendation.
indicators in SSA’s Performance and
Accountability Report for Fiscal
Year (FY) 2012: (1) Recruit and Hire
Veterans and Disabled Veterans and
(2) Employ Individuals with Targeted
Disabilities.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     Recruiting and Hiring Veterans and Disabled Veterans Underlying Data and Reported
     Performance ...............................................................................................................................3
     Individuals with Targeted Disabilities Underlying Data and Reported Performance ...............3
     Employees Converted from Temporary to Permanent Status....................................................4
     Data Source Identified ...............................................................................................................5
Conclusions ......................................................................................................................................6
Recommendation .............................................................................................................................6
Agency Comments ...........................................................................................................................6
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Standard Form-256, Self-Identification of Disability ......................................... C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)
ABBREVIATIONS
DCHR                Deputy Commissioner for Human Resources

FPPS                Federal Personnel/Payroll System

FTP                 Full-Time Permanent

FY                  Fiscal Year

GPRA                Government Performance and Results Act of 1993

GPRAMA              Government Performance and Results Act Modernization Act of 2010

HRODS               Human Resources Operational Data Store

NARA                National Archives and Records Administration

OIG                 Office of the Inspector General

OPM                 Office of Personnel Management

PAR                 Performance and Accountability Report

PI                  Performance Indicator

PTP                 Part-Time Permanent

Pub. L. No.         Public Law Number

SF-256              Standard Form 256, Self-Identification of Disability

SSA                 Social Security Administration

U.S.C.              United States Code




Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)
OBJECTIVE
Our objective was to assess the Social Security Administration’s (SSA) performance indicators
(PI) for Recruiting and Hiring Veterans 1 and Disabled Veterans 2 as well as Employing
Individuals with Targeted Disabilities. 3 Specifically, we

1. documented the sources of data collected to report on the PIs;

2. identified and tested critical controls of systems from which the specified performance data
   were gathered;

3. tested the adequacy, accuracy, reasonableness, completeness, and consistency of the
   underlying data for the specified PIs; and

4. recalculated the values reported for the indicators to verify accuracy.

BACKGROUND
On January 4, 2011, the President signed the Government Performance and Results Act
Modernization Act of 2010 (GPRAMA) 4 to modernize the Government’s performance
management framework to retain and amplify some aspects of the Government Performance and
Results Act of 1993 (GPRA). 5 GPRA established strategic planning, performance planning, and
reporting as a framework for Federal agencies to communicate progress in achieving their
missions. GPRAMA builds on lessons agencies have learned in setting goals and reporting
performance. GPRAMA also emphasizes priority-setting, cross-organizational collaboration to
achieve shared goals, and the use and analysis of goals and measurement to improve outcomes.
GPRAMA serves as a foundation for engaging leaders in performance improvement and creating
a culture where data and empirical evidence play a greater role in policy, budget, and
management decisions. 6 According to GPRAMA, Federal agencies should establish a balanced




1
 The term “veteran” denotes “. . . an employee who has been discharged or released from active duty in the armed
forces under honorable conditions and has a 5-point or 10-point veteran’s preference.” SSA’s Performance and
Accountability Report (PAR) for Fiscal Year (FY) 2012 (November 8, 2012).
2
 The term “disabled veteran” denotes “. . . an employee discharged or released from active duty in the armed forces
under honorable conditions and has a 10-point preference due to a service connected disability.” Id.
3
 The term “targeted disability” denotes “. . . an employee who has self-identified with the following physical and/or
mental impairment: deafness, blindness, missing extremities, partial paralysis, complete paralysis, and other
impairment such as epilepsy, severe intellectual disability, psychiatric disability, and dwarfism.” Id.
4
    Pub. L. No. 111-352, 124 Stat. 3866.
5
    Pub. L. No. 103-62, 107 Stat. 285.
6
 Office of Management and Budget Circular No. A-11, Part 6, Preparation and Submission of Strategic Plans,
Annual Performance Plans, and Annual Program Performance Reports, Section 200.4 (August 2012).



Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)                                          1
set of PIs to measure or assess progress toward each performance goal. 7 SSA reported it used
PIs to gauge progress in meeting strategic goals and objectives outlined in its Strategic Plan.

We reviewed the performance reporting in SSA’s FY 2012 PAR for two PIs: (a) Recruit and
Hire Veterans and Disabled Veterans and (b) Employ Individuals with Targeted Disabilities. For
FY 2012, SSA reported 36.78 percent of full-time permanent (FTP) and part-time permanent
(PTP) employees hired was veterans and 15.49 percent of FTP and PTP employees hired was
disabled veterans. SSA also reported 1.99 percent of FTP and PTP employees “on-duty” had a
targeted disability (see Table 1).

                                     Table 1: FY 2012 PI Performance
                                                                                               SSA
                                                           FY 2012          FY 2012          Reporting
                 PI                                         Target           Actual         on Whether
                                                           (percent)        (percent)         Target
                                                                                             Achieved
           Recruit and            Veteran Hiring              26.72            36.78             Yes
          Hire Veterans
          and Disabled           Disabled Veteran
                                                              14.59            15.49             Yes
            Veterans                   Hiring
             Employ
         Individuals with        Individuals with
            Targeted           Targeted Disabilities          2.00             1.99              No 8
           Disabilities

To conduct our review, we obtained information from the Office of the Deputy Commissioner
for Human Resources (DCHR). Agency staff provided employee-related information from the
Federal Personnel/Payroll System (FPPS) 9 as of October 2012. Specifically, staff provided
listings of (a) 949 FTP and PTP employees hired in FY 2012 and classified as non-veteran,
veteran, and/or disabled veteran and (b) 63,969 FTP and PTP employees “on-duty” as of
September 30, 2012 and classified as having a targeted disability, non-targeted disability, or no
reported disability. From this information, we randomly selected four samples to assess the
adequacy, accuracy, reasonableness, completeness, and consistency of the underlying data SSA
used to report FY 2012 performance for the PIs and recalculated the values reported for both PIs.
Each sample consisted of 30 employees.

See Appendix A for our scope and methodology and Appendix B for our sampling methodology
and results.


7
    31 U.S.C. § 1115(b)(6).
8
    This was SSA’s conclusion on whether it achieved the target as reported. SSA’s FY 2012 PAR, p. 91.
9
 DCHR staff extracted the employee-related information from FPPS using Datamart. SSA uses Datamart to query
and extract information from FPPS for management information reporting.



Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)                                    2
RESULTS OF REVIEW
The underlying data SSA used to report its FY 2012 PI for Recruiting and Hiring Veterans and
Disabled Veterans were adequate, reasonable, complete, and consistent; and we were able to
recalculate the performance reported for both PIs using data SSA provided. However, we were
unable to test the underlying data for Employing Individuals with Targeted Disabilities because
updated employee disability status information replaced the previous disability data in the FPPS,
and the Agency was not required to maintain the forms employees submitted. Furthermore, the
Agency did not include employees who were converted from temporary to permanent
employment in its performance reporting for recruiting and hiring veterans and disabled
veterans. However, starting in FY 2015, the Agency will adopt the new Office of Personnel
Management (OPM) performance model. Lastly, SSA incorrectly identified the Human
Resources Operational Data Store (HRODS) 10 as the data source for the PIs in certain Agency
reports.

Recruiting and Hiring Veterans and Disabled Veterans Underlying
Data and Reported Performance
Underlying data SSA used to report its FY 2012 performance for Recruiting and Hiring Veterans
and Disabled Veterans were adequate, reasonable, complete, and consistent; and we were able to
recalculate the performance reported using data SSA provided. From the 949 FTP and PTP
employees hired in FY 2012 and classified as non-veteran, veteran, and/or disabled veteran, we
reviewed 3 samples of 30 employees each (see Appendix B). For those employees sampled, we
reviewed various supporting documentation to assess these attributes, including Standard
Form 50, Notification of Personnel Action; 11 DD Form 214, Certificate of Release or Discharge
from Active Duty; 12 and documentation from the Department of Veterans Affairs related to
employees’ service-connected disabilities. In addition, we compared SSA’s FY 2012 data with
FY 2011 data to determine consistency of the performance reporting. Using the data SSA
provided, we recalculated the performance for the PI as reported by SSA.

Individuals with Targeted Disabilities Underlying Data and
Reported Performance
SSA reported its performance for Employing Individuals with Targeted Disabilities was based on
percentage of FTP and PTP “on duty” employees as of the end of FY 2012 who self-identified as


10
     HRODS is a database that contains information about active and inactive SSA employees.
11
  The Form must be prepared for all accessions, conversions, and separations. It is required both as official
notification to the employee and as official documentation of the action. OPM’s The Guide to Processing Personnel
Actions, Chapter 1-3 b (1).
12
  The report of separation contains information on military service for benefits, retirement, employment, and
membership in veterans' organizations. National Archives and Records Administration (NARA),
http://www.archives.gov/veterans/military-service-records/about-service-records.html.



Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)                                      3
individuals with targeted disabilities. However, updated employee disability status information
replaced the previous disability data in the FPPS, and SSA was not required to maintain the
forms employees submitted for the PI for targeted disabilities. Therefore, we could not test the
adequacy, accuracy, reasonableness, completeness, and consistency of the underlying data for
the PI.

SSA employees self-report physical or mental impairments for targeted disabilities using
Standard Form 256, Self-Identification of Disability (SF-256) 13 or Employee Express. 14 The
information from the SF-256 and Employee Express is transferred to FPPS. However, each time
an employee updates their disability status, the updated information replaces the previous
disability data in FPPS.

DCHR staff stated that OPM guidance did not require that it keep the SF-256 in an employee’s
official personnel folder. 15 Furthermore, DCHR staff considered completing the SF-256 a
pending personnel action (that is, a “pre-hire” action). NARA’s General Records Schedule
requires that correspondence and forms related to a pending personnel action be destroyed when
the action is completed. 16

Finally, SF-256 instructions state data collected are intended only for the reporting purposes
outlined in the Rehabilitation Act of 1973; 17 therefore, SSA is not required to retain the
documentation for other purposes. DCHR staff stated the Agency did not track employees’
disabilities in any other system.

As of September 30, 2012, DCHR staff had identified 1,275 of 63,969 employees who had a
targeted disability status recorded in FPPS. DCHR staff used this information to calculate
performance for the PI. We used the data SSA provided from FPPS to recalculate the
performance reported for the PI.

Employees Converted from Temporary to Permanent Status
SSA did not include employees converted from temporary to permanent employment in its
performance reporting of Recruiting and Hiring Veterans and Disabled Veterans. Had SSA
included these employees, its performance reporting may have been higher for this PI. SSA
reported its PI performance based on percentages of FTP and PTP veteran and disabled veteran
employees hired in FY 2012. Of the 949 employees hired, 349 (36.78 percent) were veterans
and 147 (15.49 percent) were disabled veterans.



13
     See Appendix C for a copy of the SF-256.
14
  Employee Express is an automated information system that allows Federal employees to initiate or make changes
to discretionary personnel and payroll records.
15
     OPM’s The Guide of Personnel Recordkeeping, Chapter 3-26, June 1, 2011.
16
     NARA, Transmittal No. 22, April 2010.
17
     Pub. L. No. 93-112, 87 Stat. 355, 29 U.S.C. § 701 et seq.



Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)                                    4
In reviewing the underlying data for the PI, we identified an SSA management report that stated
1,420 employees were “converted” in FY 2012. In December 2013, DCHR staff stated
“converted employees” were not included as permanent employees because they were “existing
employees”; therefore, these employees would never be included in the PI reporting.

On January 28, 2014, we asked Agency staff whether the FY 2012 PI performance could include
employees hired and converted from temporary to permanent employment during the FY.
DCHR staff stated the management report did not capture whether converted employees were
veterans or disabled veterans. In addition, DCHR staff stated it would be a significant workload
to determine which employees were hired and converted in the FY as well as veterans’ and/or
disabled veterans’ status.

On September 5, 2014, DCHR staff reported,

        Prior to April 2014, agencies did not have any guidance from OPM regarding whether
        or not we could exclude employees converted to permanent employment for Agency
        reporting. As a result, an agency decision was made not to include conversions. In
        April 2014, the Council on Veterans Employment voted to adopt a new OPM
        performance model. This new model is very specific about how to report data and
        there are now four areas to report: hires of veterans, hires of disabled veterans, total
        veterans on board, and veteran retention rate. Beginning in FY 2015, all employees
        will be included in the hiring and on-board figures. Including conversions is therefore
        unnecessary.

Data Source Identified
The data source was incorrectly identified in certain Agency reports for the PIs. SSA’s FY 2012
PAR and Annual Performance Plan for FY 2013 and Revised Final Performance Plan for
FY 2012 identified HRODS as the data source. However, in November 2013, DCHR staff
confirmed use of data from FPPS to report performance for both PIs. On January 17, 2014,
DCHR staff indicated it would accurately report the data source for the two PIs in the future.

In March 2014, SSA issued a report on the Annual Performance Plan for FY 2015, Revised
Performance Plan for FY 2014 and the Annual Performance Report for FY 2013 that correctly
identified the data source for one PI—Recruiting and Hiring Veterans and Disabled Veterans.
However, the report incorrectly identified HRODS as the data source for Employing Individuals
with Targeted Disabilities.




Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)                         5
CONCLUSIONS
Underlying data used for reporting SSA’s FY 2012 Recruiting and Hiring Veterans and Disabled
Veterans was adequate, reasonable, complete, and consistent; and we were able to recalculate the
performance reported for both PIs using data provided by SSA. However, we were unable to test
the underlying data for Employing Individuals with Targeted Disabilities because updated
employee disability status information replaced the previous disability data in the FPPS, and the
Agency was not required to maintain the forms submitted by employees. Furthermore, the
Agency did not include employees converted from temporary to permanent employment in its
performance reporting for recruiting and hiring veterans and disable veterans. However, starting
in FY 2015, the Agency will adopt a new OPM performance model. Lastly, SSA incorrectly
identified the data source for both PIs in certain performance reports.

RECOMMENDATION
We recommend SSA correct the data source in future Agency reporting for the targeted
disabilities PI.

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in Appendix D.




Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)                      6
                                      APPENDICES




Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)
Appendix A – SCOPE AND METHODOLOGY
Our objective was to assess the Social Security Administration’s (SSA) performance indicators
(PI) for Recruiting and Hiring Veterans and Disabled Veterans and Employing Individuals with
Targeted Disabilities. However, we could not obtain the underlying data to support the PI for
Employing Individuals with Targeted Disabilities. 1 As such, the scope of our audit was limited
in that we could not test the adequacy, accuracy, reasonableness, completeness, and consistency
of the underlying data for the PI.

To accomplish our objectives, we:

   Reviewed prior Office of the Inspector General and Government Accountability Office
    reports related to SSA’s PIs.

   Reviewed SSA’s Performance and Accountability Report (PAR) for Fiscal Year (FY) 2012
    and Annual Performance Plan for FY 2013 and Revised Final Performance Plan for FY
    2012.

   Reviewed applicable Federal laws and regulations and SSA policy.

   Selected four random samples to assess the adequacy, accuracy, reasonableness,
    completeness, and consistency of the underlying data SSA used to report FY 2012
    performance for the two PIs and recalculated the values reported for both indicators (see
    Appendix B).

        Selected 3 random samples of 30 employees from the 949 full-time permanent (FTP) and
         part-time permanent (PTP) employees hired in FY 2012 classified as non-veteran,
         veteran, and/or disabled veteran.

        Selected 1 random sample of 30 employees from 1,275 FTP and PTP employees “on-
         duty” as of September 30, 2012 classified as having a targeted disability. However, we
         were unable to test the adequacy, accuracy, reasonableness, completeness, and
         consistency of the underlying data for the PI.

   Documented the sources of data collected to report on the PIs.

   Identified and tested critical controls of systems from which the specified performance data
    were gathered.

   Recalculated the percentages reported in the FY 2012 PAR for the PIs.



1
 “An employee who has self-identified with the following physical and/or mental impairment: deafness, blindness,
missing extremities, partial paralysis, complete paralysis, and other impairment such as epilepsy, severe intellectual
disability, psychiatric disability, and dwarfism.” SSA’s FY 2012 PAR.



Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)                                         A-1
We conducted our review at SSA’s Headquarters in Baltimore, Maryland, from September 2013
through March 2014. We found the data used for SSA’s FY 2012 PI for Recruiting and Hiring
Veterans and Disabled Veterans to be sufficiently reliable to meet our audit objective. However,
we found that updated employee disability status information replaces the previous disability
data in the Federal Personnel/Payroll System, and SSA was not required to maintain the forms
submitted by employees for the PI for Employing Individuals with Targeted Disabilities.
Therefore, we were unable to determine whether the data were sufficiently reliable for SSA’s FY
2012 PI for Employing Individuals with Targeted Disabilities. Further, any data limitations in
the context of this assignment, and the use of the data should not lead to an incorrect or
unintentional conclusion. The primary entity audited was the Office of the Deputy
Commissioner for Human Resources.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)                   A-2
Appendix B – SAMPLING METHODOLOGY AND RESULTS
We obtained and analyzed data provided by the Social Security Administration (SSA) for two
performance indicators: (1) Recruit and Hire Veterans and Disabled Veterans and (2) Employ
Individuals with Targeted Disabilities. Specifically, we obtained employee-related information
from the Office of the Deputy Commissioner for Human Resources. Staff provided listings of
(a) full-time permanent (FTP) and part-time permanent (PTP) employees hired in Fiscal Year
(FY) 2012 classified as non-veteran, veteran, and/or disabled veteran and (b) FTP and PTP
employees “on-duty” as of September 30, 2012 classified as having a targeted disability,
non-targeted disability, or no reported disability.

Recruit and Hire Veterans and Disabled Veterans
As of October 23, 2012, SSA identified 949 FTP and PTP employees hired in FY 2012. Of the
949 employees hired, 349 were veterans. Of the 349, 147 were disabled veterans.

We separated these employees into three sampling frames.

   SAMPLE FRAME 1 — 600 non-veteran employees.

   SAMPLE FRAME 2 — 202 non-disabled veterans employees.

   SAMPLE FRAME 3 — 147 disabled veterans employees.

We selected a random sample of 30 employees from each sample frame, for a total of
90 employees. For each sample item, we reviewed SSA’s records to determine (a) the FY
employees were hired; (b) FTP or PTP classification of employees; and (c) underlying data
assessed for the applicable PI.

Employ Individuals with Targeted Disabilities
As of October 24, 2012, SSA had identified 63,969 FTP and PTP employees “on-duty” as of
September 30, 2012. Of the 63,969 employees, 1,275 were identified as having a targeted
disability.

We selected a random sample of 30 employees from 1,275 employees. However, we were
unable to test the adequacy, accuracy, reasonableness, completeness, and consistency of the
underlying data for the PI.




Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)                    B-1
Appendix C – STANDARD FORM-256, SELF-IDENTIFICATION
             OF DISABILITY




Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)   C-1
Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)   C-2
        Appendix D – AGENCY COMMENTS




                                        SOCIAL SECURITY

MEMORANDUM


Date:   August 29, 2014                                                              Refer To:   S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   James A. Kissko
        Chief of Staff

Subject: Office of the Inspector General Draft Report, “Performance Indicator Audit: Recruiting and
         Employment Indicators” (A-13-14-14033)--INFORMATION

        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Gary S. Hatcher at (410) 965-0680.

        Attachment




        Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"PERFORMANCE INDICATOR AUDIT: RECRUITING AND EMPLOYMENT
INDICATORS" (A-13-14-14033)


Recommendation

Correct the data source in future agency reporting for the targeted disabilities performance
indicator.

Comment

We agree. In September 2013, we took action to correct the data source for future performance
indicator reporting from the Human Resources Operational Data Store to the Federal
Personnel/Payroll System.




Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)                     D-2
Appendix E – MAJOR CONTRIBUTORS
Shirley E. Todd, Director

Randy Townsley, Audit Manager

Donna Parris, Auditor




Performance Indicator Audit: Certain Employment Indicators (A-13-14-14033)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
